         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Decommissioning and Demolition
Activities at Office of Science Sites




OAS-RA-L-10-05                         August 2010
DOE F 1325.8
(08-93)
United States Government                                                         Department of Energy


Memorandum
        DATE:    August 12, 2010                                 Audit Report Number: OAS-RA-L-10-05
    REPLY TO
     ATTN OF:    IG-32 (A10RA005)
   SUBJECT:      Audit Report on "Decommissioning and Demolition Activities at Office of Science Sites"
           TO:   Deputy Director for Field Operations, SC-3
                 Manager, Brookhaven Site Office
                 Manager, Argonne Site Office

                 INTRODUCTION AND OBJECTIVE

                 In February 2009, the President signed the American Recovery and Reinvestment Act of
                 2009 (Recovery Act) into law. The Department of Energy's (Department) Office of
                 Environmental Management (EM) allocated $140 million of Recovery Act funds to
                 decommission and demolish (D&D) Office of Science facilities at Argonne National
                 Laboratory (Argonne) and to accelerate ongoing D&D activities at Brookhaven National
                 Laboratory (Brookhaven). D&D activities funded at Argonne included the demolition of
                 Buildings 330 and 310, the removal of wastes and nuclear material from another
                 building, and the removal of the majority of the remote-handled and contact handled
                 transuranic waste from the Argonne site. Brookhaven's D&D activities included
                 decontamination of the High Flux Beam Reactor (HFBR) and demolition of its related
                 buildings and waste lines, and the removal and disposal of the graphite and biological
                 shield from the Brookhaven Graphite Research Reactor (BGRR).

                 Due to the significant investment in these projects and the emphasis placed on Recovery
                 Act funding, we initiated this audit to determine whether the Office of Science (Science)
                 had established effective controls over the use of Recovery Act funds used for D&D
                 activities at Argonne and Brookhaven and had achieved its objectives for the D&D
                 projects.

                 CONCLUSION AND OBSERVATIONS

                 Nothing came to our attention which indicated that Science had not substantially
                 complied with Recovery Act requirements in expending funds for the Argonne and
                 Brookhaven D&D projects. For example, we found that the laboratories were generally
                 in compliance with reporting guidelines, had segregated costs, and had ensured that
                 Recovery Act requirements were included in subcontracts. While we noted some
                 concerns with the BGRR project at Brookhaven and the Building 310 project at Argonne,
                 we also determined that the Department had taken actions to mitigate the concerns.
                              BGRR Project at Brookhaven

Estimated project completion costs for Brookhaven's BGRR Project have increased and
the estimated completion dates for many critical path milestones have slipped from the
original project baselines. Specifically, estimated project completion costs have risen
from $108 million in February 2008 to $120 million as of March 2010. Additionally,
Brookhaven officials estimate that the scheduled completion date for the project has
slipped 17 months, from April 2010 to September 2011.

The cost increases and schedule slippages were largely attributable to problems
encountered by the subcontractor Brookhaven hired to perform the work at the BGRR.
The subcontractor experienced significant delays due to design issues with the equipment
needed to remove and dispose of the graphite and biological shield at the BGRR,
problems that eventually led to a Request for Equitable Adjustment. Brookhaven paid
the subcontractor $4.3 million to settle the claim in an effort to mitigate further cost and
schedule consequences. Subsequently, Brookhaven paid the subcontractor another $1.7
million related to the initial work. Brookhaven officials told us they considered the
BGRR project a turnkey operation, since they awarded a fixed-price subcontract that
included a performance specification for the work to be performed. Laboratory officials
also stated that there was poor communication between them and the subcontractor, a fact
that was reinforced by the fact that Brookhaven was unaware of the extent of the cost and
schedule issues until the subcontractor submitted its Request for Equitable Adjustment.
The lack of knowledge of the extent of the problems encountered by its subcontractor
meant that Brookhaven was unable to mitigate cost and schedule consequences at an
early point.

                          Building 310 D&D Project at Argonne

Our review of the Building 310 project at Argonne found that the scope of the project had
changed from what was originally proposed. The original Building 310 D&D plan called
for the entire building, including the foundation and footers, to be removed and disposed
of. However, initial soil samples around the building found trace amounts of radioactive
materials. Since the original plan required disposal of the soil around the foundation,
which would have been costly, the revised plan is to leave the basement, foundation, and
footers in place. We noted that EM approved the revised scope in the Building 310
Project Execution Plan in May 2010. A detailed soil characterization had not been
performed at the time of our review; therefore, Argonne was unsure what the source of
the contamination was, how far it extended from the building, or how far underground it
went. Without a complete soil characterization, Science cannot make informed decisions
regarding the need, extent and timing of any future project to remove the contamination.

MITIGATING ACTIONS

The Department has initiated actions intended to help mitigate the issues at Brookhaven
and Argonne. To address the past oversight and communication issues with its
subcontractor, EM required Brookhaven to perform onsite reviews of the work and



                                             2
conduct an independent assessment of the design approach at certain decision points
throughout the performance period. The additional level of monitoring led to
Brookhaven discontinuing the use of the subcontractor for a re-design effort.
Brookhaven identified an alternative approach to the planned re-design, which it believes
will result in less cost and schedule risk for the project. In the near future, Brookhaven
plans to procure the design, construction, and installation of the equipment needed for the
alternate approach to remove and dispose of the biological shield at the BGRR.

Similarly, the Argonne Site Office addressed the need for additional soil characterization
around Building 310 by revising the Recovery Act Project Operating Plan for the D&D
Projects at Argonne. The revised Project Operating Plan includes the proposed soil
characterization of Building 310, estimated at $1.8 million, as an option that could be
added to the Recovery Act D&D scope, should sufficient unused contingency and
management reserve remain at the end of the ongoing D&D activities at Argonne.

The above actions, if successfully implemented, should mitigate the concerns discussed
in this report. Accordingly, we are not making formal recommendations and a formal
response is not required. We appreciated the cooperation of the various Department
elements and all the staff at the contractors during this effort.




                                      David Sedillo, Director
                                      NNSA & Science Audits Division
                                      Office of Inspector General

Attachment

cc:    Director, Office of Risk Management, CF-80
       Team Leader, Office of Risk Management, CF-80
       Audit Resolution Specialist, Office of Risk Management, CF-80
       Audit Liaison, Office of Science, SC-41
       Audit Liaison, Chicago Office




                                     3
                                                                             Attachment


SCOPE AND METHODOLOGY

This audit was performed between February 2010 and August 2010 at the Department of
Energy's (Department) Brookhaven Site Office and Brookhaven National Laboratory
(Brookhaven) in Upton, New York; and, the Argonne Site Office and Argonne National
Laboratory (Argonne) in Argonne, Illinois. To accomplish the audit objective, we:

        Reviewed and evaluated documentation, such as monthly project management reports
        and Project Execution Plans, related to the decommission and demolish (D&D) work at
        Argonne and Brookhaven;

        Judgmentally selected American Recovery and Reinvestment Act of 2009 (Recovery
        Act) transactions recorded by Brookhaven and Argonne and traced them to supporting
        vendor invoices;

        Judgmentally selected subcontracts awarded for the D&D work at Brookhaven and
        Argonne, and reviewed them for the presence of required contract clauses;

        Reviewed totals reported by Brookhaven and Argonne to the FederalReporting.Gov
        website; and,

        Held discussions with personnel from the Brookhaven Site Office, Brookhaven National
        Laboratory, Argonne Site Office and Argonne National Laboratory.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. During the audit, we assessed the
Department's compliance with the Government Performance and Results Act of 1993 and found
that no specific performance measures related to the D&D projects were established. We did,
however, note that there are performance measures relevant to the projects, such as effective
waste management. We utilized computer-processed data to identify the population of costs
spent using Recovery Act funding in order to accomplish our audit objective. Based on our
comparisons of computer-processed data to supporting documentation, we determined that the
data were sufficiently reliable for the purposes of our report.

Management waived an exit conference.




                                           4
                                                               IG Report No. OAS-RA-L-10-05

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
